                     DEPARTMENT OF HOMELAND SECURITY
                                                      Office of Inspector General
                                                  Atlanta Field Office-Audit Division
                                                       3003 Chamblee Tucker Rd
                                                           Atlanta, GA 30341

                                                                October 27      2003

MEMORANDUM

TO:                          Kenneth O. Burrs , Jr.
                             Regional Director FEMA Region IV

FROM:                        Gar J. Barard
                             Field Offce Director

SUBJECT:                     Piedmont Electrc Membership Corporation
                             FEMA Disaster No. 1134- DR-
                             Audit Report No. DA- OI-


The Offce of Inspector General (OIG) audited public assistance fuds awarded to the
Piedmont Electrc Membership Corporation of Hilsborough , North Carolina. The
objective of the audit was to determine whether the Corporation accounted for and
expended FEMA fuds according to federal regulations and FEMA guidelines.

The Corporation received an award of$I. 7 million from the North Carolina Division of
Emergency Management , a FEMA grantee , to remove debris and repair the electrcal
distrbution system damaged as a result of Hurcane Fran in September 1996. The award
provided 90 percent FEMA fuding for two large projects and two small projects I . Audit
work was limited to the $1 690 539 awarded and claimed under the two large projects , as
follows:

                    Project                        Amount                         Amount
                    Number                         Awarded                        Claimed
                    817                           $ 142 095                      $ 142 095
                    863                            1.548.444                       1.548.444
                    Total                          1.690. 539                      1.690. 539

The audit covered the period September 1996 to September 2002. During this period, the
Corporation received $1 521 485 ofFEMA funds under the two large projects.

Notice: This report remains the propert of the DHS Offce of Inspector General (DHS-OIG) at all times and, as such , is not
to be publicly disclosed without the express permission of the DHS-OIG. Requests for copies of this report should be
immediately forwarded to the DHS Offce of Counsel to the Inspector General to ensure strict compliance wit all applicable
disclosure laws.




1 According to FEMA regulations , a large project costs $44 800 or more and a small project costs less than
$44 800.
The OIG performed the audit under the authority of the Inspector General Act of 1978 , as
amended , and according to generally accepted government auditing standards. The audit
included tests of the Corporation s accounting records , ajudgmental sample of
expenditures , and other auditing procedures considered necessary under the
circumstances.

                                       RESULTS OF AUDIT

Except for questioned charges of $9 317 (FEMA share $8 385) resulting from unapplied
credits and unsupported costs , the Corporation properly accounted for and expended
FEMA funds.

A.   Unapplied Credits . The U. S. Office of Management and Budget Circular A- 87 states
     that costs claimed under a federal award must be reduced by applicable credits (i.
     discounts , salvaged equipment value , refunds , etc. ). However , the OIG found that a
     credit of $2 677 for salvaged materials under Project 863 was charged as an expense
     rather than reflected as a credit used to reduce cost claimed.

     Specifically, while repairing the electrcal distrbution system , the Corporation
     recovered materials that included cross bars , insulators , switches , fuses , and
     conductors. These salvaged materials , valued at $2 677 , were placed in the
     Corporation s material inventory account for future use. However , the Corporation
     mistakenly charged the project $2 677 rather than crediting the project for the
     salvaged materials. This inappropriate charge and unapplied credit resulted in a
        354 overstatement ofthe Corporation     s claim. Accordingly, the OIG questions   the
        354 claimed.

B.   Unsupported Cost. The Corporation claimed $3 963 for vehicle usage under
     Project 863 , but did not maintain adequate documentation supporting the cost claimed.
     The Corporation s claim for vehicles usage in October 1996 was supported by only an
     Excel spreadsheet showing a description of vehicles , hours of use , and the amount
     claimed. However , the Corporation was unable to find vehicle utilization records that
     were reportedly the source of the data in the spreadsheet. Accordingly, the OIG
     questions the $3   963 claimed.
                                RECOMMENDATION

The OIG recommends that the Regional Director , in coordination with the grantee
disallow the $9 317 of questioned costs.

          DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-

The OIG discussed the results of our audit with Corporation , grantee , and FEMA officials
on October 9 , 2003. Corporation officials concurred with the findings.


Please advise the Atlanta Field Offce- Audit Division by November 27 2003 of the
actions taken to implement the recommendation. Should you have any questions
concerning this report , please contact George Peoples or me at (770) 220- 5242.
